HHS/OIG, Audit -"Review of Pension Costs Claimed by CareFirst,"(A-07-03-03036)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed by CareFirst," (A-07-03-03036)
May 2, 2003
Complete
Text of Report is available in PDF format (902 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of pension costs
claimed for Medicare reimbursement for fiscal years (FYs) 1992 through 2001.   For
FYs 1992 through 2001, we determined that CareFirst of Maryland (CareFirst)
underclaimed allowable Medicare pension costs.  During this period, the
allowable Medicare pension costs were $589,413.  However, CareFirst claimed
pension costs of $476,229 for Medicare reimbursement.  As a result, CareFirst
did not claim $113,184 of allowable pension costs.   We recommended
that CareFirst revise its Final Administrative Cost Proposals for FYs1992 through
2001 to claim additional allowable pension costs of $113,184.